Halscott Megaro
September 20, 2019
Honorable Clarence Thomas
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:
Court Below:
Case #:

Chesley Eugene Saunders v. Secretary, Florida Department of
Corrections
United States Court of Appeals for the Eleventh Circuit
19-11305

Dear Justice Thomas:
I represent Chesley Eugene Saunders in the above-entitled action. On July 8, 2019, the United
States Court of Appeals for the Eleventh Circuit denied my client a Certificate of Appealability,
effectively affirming a judgment of the United States District Court for the Middle District of
Florida. That judgment denied my client a writ of habeas corpus pursuant to 28 U.S.C. ยง 2254.
The petition in this Court is due on or before October 7, 2019. I write to respectfully request an
additional 30 days to file the petition for a writ of certiorari to November 8, 2019. I make this
request because I have several other cases with pressing deadlines and because I need to confer
with my client about a specific issue and he is presently incarcerated, making communication with
him difficult.
I am making this request in good faith and not for the purpose of undue delay. I hereby certify
that a copy of the foregoing has been furnished to Douglas T. Squire, Esq., Assistant Attorney
General, who is counsel for the Respondent.
If the Court has any dditional questions I am available at the Court's convenience. Thank you.
Respectfully Ser itted,

Patrick Michael Megaro, Esq.

Halscott Megaro, P.A.
1300 N Semoran Blvd, Suite 195
Orlando, Fl 32807
40011111111111111111E

CERTIFICATE OF SERVICE
Pursuant to Rule 29.5 of the Supreme Court of the United of America, the following parties have
been served via USPS mail on September 20, 2019 to:
Douglas T. Squire, Esq.
444 Seabreeze Boulevard, 5th Floor
Daytona Beach, Florida 32118
douglas.squire@my oridalegal.com
crimappdab@my idalegal.com

Patn

ael Megaro, Esq.

